CERTIFICATE OF SERVICE
NO. TBD
Jason Assad
Petitioner,
v.
Todd Wasmer, Warden Tecumseh Correctional Institution;
Scott R. Frakes, Director of the Nebraska Department of Correctional Services
Respondents.
__________
STATE OF MASSACHUSETTS )
COUNTY OF NORFOLK
) SS.:
Being duly sworn, I depose and say under penalty of perjury:
1. That I am over the age of 18 years and am not a party to this action. I am an employee of
the Supreme Court Press, the preparer of the document, with mailing address at 1089 Commonwealth
Avenue, Suite 283, Boston, MA 02215.
2. On the undersigned date, I served the parties in the above captioned matter with the JASON
ASSAD PETITION FOR WRIT OF CERTIORARI, by mailing three (3) true and correct copies of the same
by Fedex 2-Day, prepaid for delivery to the following address.
Stacy Marie Foust
Assistant Attorney General
Nebraska Attorney General's Office
2115 State Capitol
Lincoln, NE 68509-8920
(402) 471-4723
Counsel for Todd Wasmer, Warden Tecumseh
Correctional Institution; Scott R. Frakes,
Director of the Nebraska Department of
Correctional Services

_____________________________
Chan Sekhar
April 23, 2021
SCP Tracking: Soucie-35 Rosemont Parkway-Cover White

